<html>
<title> - EXAMINING FY 2017 FUNDING PRIORITIES IN THE WESTERN HEMISPHERE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


     EXAMINING FY 2017 FUNDING PRIORITIES IN THE WESTERN HEMISPHERE

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2016

                               __________

                           Serial No. 114-179

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ________
                                 
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
99-947PDF                     WASHINGTON : 2016                       
                                 
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="482f3827082b3d3b3c202d2438662b272566">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 
                              ----------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida                 ALAN S. LOWENTHAL, California
DANIEL DONOVAN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Francisco Palmieri, Principal Deputy Assistant Secretary, 
  Bureau of Western Hemisphere Affairs, U.S. Department of State.     4
Luis Arreaga, Ph.D., Principal Deputy Assistant Secretary, Bureau 
  of International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State............................................    10
Ms. Elizabeth Hogan, Acting Assistant Administrator, Bureau for 
  Latin America and the Caribbean, U.S. Agency for International 
  Development....................................................    20

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Francisco Palmieri: Prepared statement.......................     6
Luis Arreaga, Ph.D.: Prepared statement..........................    12
Ms. Elizabeth Hogan: Prepared statement..........................    22

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Alan S. Lowenthal, a Representative in Congress 
  from the State of California: Prepared statement...............    50
Questions for the record submitted by the Honorable Jeff Duncan, 
  a Representative in Congress from the State of South Carolina, 
  and chairman, Subcommittee on the Western Hemisphere...........    52
Questions for the record submitted by the Honorable Ileana Ros-
  Lehtinen, a Representative in Congress from the State of 
  Florida........................................................    55

 
     EXAMINING FY 2017 FUNDING PRIORITIES IN THE WESTERN HEMISPHERE

                              ----------                              


                       WEDNESDAY, APRIL 27, 2016

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 2172, Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. Okay. We will go ahead and get started. A 
quorum being present, the subcommittee will come to order.
    I would like to now recognize myself for an opening 
statement.
    We meet today to conduct oversight of the Obama 
administration's Fiscal Year 2017 budget request for the 
Western Hemisphere, which aims to provide nearly $2 billion to 
countries in the region with an increase over what the U.S. 
gave in Fiscal Year 2015. The administration has a plethora of 
initiatives in the region, all aiming to address economic, 
citizen security, and clean energy objectives. However, some 
have criticized the U.S. approach to Latin America and the 
Caribbean as improvised and lacking a sense of strategic 
direction.
    Today, when our Nation stands at over $19 trillion in debt, 
we have no business giving any foreign assistance, unless the 
administration can show a compelling vision and a clear 
strategy for how that aid will advance U.S. national interest 
in the region, tangible objectives that have measurable 
benchmarks for success, and evident political will from our 
partners to tackle the hard issues of corruption and impunity 
that threaten the effectiveness of U.S. assistance and the very 
economic growth of the hemisphere that we all hope to see.
    As Representatives of the American people, the U.S. 
Congress has the responsibility to ensure that every single 
taxpayer dollar spent on foreign assistance furthers U.S. 
national interest, not those of foreign governments or 
international organizations. We must further work together to 
root out waste, fraud, abuse, and inefficiencies within the 
U.S. programs to prevent duplication and overlap and, instead, 
achieve success by outcomes. So with that in mind, I want to 
take a moment to highlight a few oversight areas that I believe 
require attention and adjustments.
    According to congressional watchdogs, the Government 
Accountability Office, or GAO, they currently have six reports 
with open recommendations that the U.S. State Department or the 
U.S. Agency for International Development, USAID, have not 
fully implemented. Moreover, according to USAID's Office of 
Inspector General, as of April 25, USAID had 157 open and 
unimplemented recommendations relating to programs in the 
Western Hemisphere. These include 59 recommendations that have 
a potential cost savings of almost $11 million.
    When we see such clear low-hanging fruit for achieving 
efficiency and cost savings, I do not understand why these 
recommendations remain unimplemented. Thus, I urge State and 
USAID to act immediately to address the GAO and OIG 
recommendations in a satisfactory manner.
    Of the nearly $2 billion requested for the Western 
Hemisphere in the Fiscal Year 2017 budget request, the 
administration has prioritized more than $628 million for 
development assistance programs and over $15 million for global 
climate change initiatives within the region. While I am 
encouraged to see the administration reverse its cuts in 
security displayed in last year's budget request, the State 
Department's Bureau of International Narcotics and Law 
Enforcement chose to request less for Mexico in order to first 
address the outstanding pipeline issues by spending what they 
still have from previous years before asking for more money. 
And that is a good thing. That is a good sign showing smarter 
financial management decisions and stewarding of American 
taxpayer dollars.
    But I am concerned with the heavy emphasis on development 
assistance rather than economic support funds. Thus, I want to 
hear the administration's rationale for shifting the emphasis 
of U.S. assistance and the administration's plan on how to 
prevent country dependency on those funds.
    Nearly $744 million of the budget request would go to 
Central America. I believe it is critical for the American 
people to see tangible proof of U.S. assistance in the region 
and achieving our objectives before we provide another large 
tranche of money. However, I understand that State and USAID 
have not yet spent the $750 million appropriated by the U.S. 
Congress last year.
    While I am supportive of the need to address the root 
causes to address the migration issues to the U.S., I want to 
ensure that we are not simply throwing more money at the 
problem. What analysis has the administration done to determine 
if previous U.S. funding is yielding results? What commitments 
have Central American governments made to provide matching 
funds and to tackle the massive corruption problems plaguing 
the region? And what safeguards does the U.S. have in place to 
protect American investment in the region from abuse?
    The administration has also requested a major increase in 
funding for Colombia, the single largest recipient of U.S. 
foreign assistance in the hemisphere. Colombia is an important 
U.S. ally in the Western Hemisphere, and during the past 15 
years, it has transformed into a respected leader in the 
region. Given U.S. long-term support for Colombia, the U.S. 
maintains a considerable stake in the outcome of the ongoing 
peace negotiations.
    I am supportive of Colombia's efforts to achieve peace. 
However, I want to know that the U.S. is supporting a peace 
deal that is good for the Colombian people, the jointly hard-
won security gains of U.S.-Colombian forces, and the U.S. 
interests in the region.
    Given the request for $391 million for Colombia, I would 
like to hear about how these funds will support the Colombian 
Government's efforts to verify the demobilization and 
disarmament of the FARC terrorist members and address the 
growing drug eradication and interdiction challenges.
    In addition, for most years since Fiscal Year 2009, the 
U.S. Congress has given $20 million annually to support 
democracy and human rights in Cuba. However, the 
administration's budget request proposes cuts to U.S. efforts 
in these areas. At a time when the Castro government is 
demolishing churches, arresting pastors, imprisoning human 
rights dissidents at record numbers, I can't comprehend why the 
administration would seek to reduce U.S. support for human 
rights and democracy by 25 percent.
    I would also like to understand the rationale for the 
administration's request for $218 million for Haiti, given 
GAO's reporting of multiple cases of cost overruns and delays 
for reconstruction projects. Similarly, I am concerned to see 
the administration's request of an additional increase of 
funding for countries like Nicaragua, while cutting U.S. 
assistance to our friends like Argentina, Chile, Panama, 
Paraguay, Peru, and Uruguay.
    Having recently led a congressional delegation to the 
region with the express intent of showing our partners in the 
region that the U.S. is a reliable friend, I believe these cuts 
and assistance send the wrong message about the U.S. interests 
in the region. At a time when Iran, Russia, and China continue 
to increase their activities in the Western Hemisphere, the 
U.S. needs to continue to convince our friends to make the U.S. 
their partner of choice.
    Finally, I want to ensure that U.S. assistance to Inter-
American organizations support U.S. interests. I am concerned 
about the outsized share of U.S. support for these 
organizations, the limited numbers of U.S. personnel working in 
these organizations to support United States objectives, and 
seemingly low level of influence the United States has, given 
the amount of money that the American people provide.
    So I will look forward to hearing from our witnesses today 
on all these issues.
    And with that, I will turn to the ranking member for his 
opening statement.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing.
    And thank you to our witnesses from the State Department 
and USAID for being here to talk about the administration's 
Fiscal Year 2017 funding priorities in the Western Hemisphere.
    Today's hearing occurs at a time of complex foreign policy 
challenges in the region. Yet U.S. assistance to Latin America 
and the Caribbean has declined over the last several years. 
Without U.S. leadership, regional challenges, such as the flow 
of unaccompanied children from the Northern Triangle countries 
to the U.S., political violence in Haiti, the Zika outbreak, 
corruption scandals in Brazil, and the polarized political 
situation in Venezuela, could reach dangerous levels of 
instability.
    I am pleased that the administration's Fiscal Year 2017 
budget requests include more than $1.7 billion in aid for the 
region, representing a 10 percent increase in funding. It is 
critical that we assist our regional neighbors in their efforts 
to achieve peace and security, good governance, and economic 
prosperity.
    In Cuba, we continue to see the Castro regime brutalize its 
people and forcefully stomp out any attempt at free speech, a 
free economy, and free expression. Drug trafficking and 
transnational criminal organizations plague Central America and 
wreak havoc in the region, posing a direct security threat to 
the United States. Every year hundreds die trying to reach our 
southern border in a desperate attempt to escape the violence. 
Poverty and corruption run rampant in several Latin American 
countries.
    In Colombia, the Santos government is seeking to end its 
52-year internal conflict and implement a sustainable and 
inclusive peace. Working together in a bipartisan fashion, we 
can ensure that this proposed Fiscal Year 2017 budget is used 
efficiently and with proper oversight.
    I look forward to the testimony of our witnesses as they 
lay out U.S. priorities and the importance of American 
engagement in the Western Hemisphere. Thank you.
    Mr. Duncan. It was almost like you had a missing page 
there, wasn't it?
    Mr. Sires. Yeah, well----
    Mr. Duncan. It happens.
    You all have testified before. I am not going to have to 
explain the lights. You get 5 minutes to testify. I will look 
forward to hearing the testimony.
    Mr. Palmieri, you are recognized. I enjoyed our meeting the 
other day, very insightful and very informative. And thanks for 
being here today. You are recognized for 5 minutes.

STATEMENT OF MR. FRANCISCO PALMIERI, PRINCIPAL DEPUTY ASSISTANT 
     SECRETARY, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Palmieri. Thank you, Chairman Duncan, Ranking Member 
Sires, and other members of the subcommittee. Thank you for 
this opportunity to testify on the Fiscal Year 2017 foreign 
assistance request for the Western Hemisphere, and thank you 
for your ongoing support of our diplomatic assistance efforts 
in this hemisphere.
    The administration's approach to the region seeks to 
improve security, strengthen the rule of law, promote democracy 
and human rights, advance partnerships, and promote prosperity 
and inclusive growth for all citizens. U.S. assistance is a 
critical tool that supports these goals.
    In our request for Central America and Mexico, we seek to 
address the underlying conditions driving migration from 
Central America through Mexico and to the United States. The 
request also includes increases to support Colombia's 
implementation of an expected peace agreement, marking the end 
of the hemisphere's longest running conflict. The request 
maintains support for key U.S. partnerships with Peru, Haiti, 
and the Caribbean.
    The Fiscal Year 2017 foreign assistance request for our 
strategy in Central America continues support for prosperity, 
governance, and security, particularly for Central America's 
Northern Triangle in recognition of the acute challenges these 
countries face. The U.S. assistance through the strategy 
complements the investments Northern Triangle governments are 
making through their own development plan, the Alliance For 
Prosperity.
    The countries themselves plan to spend $2.6 billion of 
their own money this year to support their own plan. Continued 
U.S. support will be vital to Colombia's success as it seeks to 
implement a peace accord.
    Our partnership with Mexico remains an important priority 
for the United States and includes a range of issues that 
benefit both countries, including trade and investment, energy 
and security. The Merida Initiative continues to provide the 
framework for our bilateral security cooperation at both 
Federal and State levels.
    Our request includes essential democracy assistance for 
Cuba and Venezuela where the United States will continue to 
provide assistance that advances universal human rights and 
supports vibrant civil societies. Promotion of democratic 
principles and human rights remains at the core of U.S. 
assistance to Cuba.
    Our request for Haiti continues investments in 
infrastructure, agriculture, economic growth, basic education 
and health, expanded governance, democracy activities, and 
security. A sustained U.S. commitment in Haiti is essential to 
build on the past gains of U.S. efforts in Haiti and to build 
its capacity to respond to citizens' needs.
    Improving security and development in the Caribbean 
directly benefits U.S. interests. The Caribbean Basin Security 
Initiative complements the Caribbean's own efforts to reduce 
crime and violence, strengthen the rule of law, and address the 
factors that put youth and marginalized communities at risk of 
insecurity.
    U.S. counternarcotics assistance complements investments 
made by the Government of Peru and maintains our strong 
partnership in eradication and alternative development to coca 
cultivation.
    I urge the U.S. Congress to fully fund this request for the 
Western Hemisphere, as it advances our national security 
interests and wisely invests our limited resources where they 
can have the most significant impact. I look forward to your 
questions.
    [The prepared statement of Mr. Palmieri follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
                              ----------                              

    Mr. Duncan. Thank you.
    And, Dr. Arreaga, is that how you pronounce that?
    Mr. Arreaga. Arreaga. Thank you.

 STATEMENT OF LUIS ARREAGA, PH.D., PRINCIPAL DEPUTY ASSISTANT 
     SECRETARY, BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
         ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Arreaga. Chairman Duncan, Ranking Member Sires, and 
members of the subcommittee, thank you for the opportunity to 
appear before you to discuss our Fiscal Year 2017 budget 
request for the Western Hemisphere. With your permission, I 
have a formal statement which I would like to submit for the 
record.
    In 2017, the Bureau of International Narcotics and Law 
Enforcement Affairs, or INL, is requesting $489 million to 
support some of America's most effective and important foreign 
assistance and partnership programs. This includes the Central 
American Regional Security Initiative, the Caribbean Basin 
Security Initiative, the Merida Initiative, and programs in 
Colombia, Haiti, and Peru.
    As this committee knows, our Nation's prosperity is closely 
tied with our neighbors in the region. From the Rio Grande to 
the Andes Mountains, the hemisphere is in the midst of major 
change. Countries are changing governments peacefully. People 
are standing up and fighting corruption, and their voices are 
being heard. Some of the most notorious narcotrafficking bosses 
have been captured, and in Colombia, peace talks hold the 
promise of expanding the rule of law and marginalizing the drug 
trade.
    However, some changes have not been positive. Despite a 
recent fall in homicide rates, Central America's Northern 
Triangle still has one of the highest murder rates in the 
world. While Peru eradicated record-breaking amounts of coca 
last year, cultivation remains high. Colombia has witnessed a 
nearly 100 percent increase in coca cultivation in the last 
couple of years. And while Mexico has achieved many notable 
successes in fighting drug cartels, the amount of poppy being 
grown has increased 65 percent since 2014.
    INL programs are particularly important at this juncture 
because they are agents of change. They tackle the threats and 
leverage the positive changes I just described. The investments 
we are making will benefit our country and the people of the 
region.
    In Central America, we are partnering with USAID and others 
to leverage our model police precinct programs. We are adding 
prevention and comprehensive assistance components, which 
together compromise a place-based strategy that targets the 
areas most affected by violence. This approach is already 
reducing homicides and increasing the public trust in law 
enforcement institutions.
    Many INL initiatives rely on sister Federal agencies, as 
well as many local, State, and international partners. Among 
the most effective of these is our partnership with Colombia, 
which has gone from being a consumer to being a supplier of 
security assistance in the region. Today, this includes joint 
U.S.-Colombian training and advising in many areas like border 
security, special operations, police reform, and drug 
investigations.
    INL's programs cover the entire range of the justice 
sector. In Mexico, Central America, the Caribbean, and South 
America we are strengthening justice systems and expanding 
their reach.
    Many nations in Latin America are moving toward an 
accusatory criminal justice system, which is broadly similar to 
our own. We are training prosecutors and judges to function in 
this new environment and helping them make their judicial 
process more efficient and fair. Equipment and training 
provided by INL also helps us by helping our neighbors secure 
their borders and by strengthening relationships with U.S. 
border agencies.
    A more democratic and prosperous region is in the interest 
of our country, and with your support for our programs, we can 
achieve the outcomes that we desire, which is nothing less than 
strengthening the security of our hemisphere and our country.
    Chairman Duncan, Ranking Member Sires, thank you for the 
opportunity to appear before you today. I look forward to your 
questions.
    [The prepared statement of Mr. Arreaga follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. Thank you so much for that testimony.
    Ms. Hogan, welcome back. You are recognized for 5 minutes.

      STATEMENT OF MS. ELIZABETH HOGAN, ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Hogan. Thank you very much.
    Chairman Duncan, Ranking Member Sires, and distinguished 
members of the subcommittee, thank you for the invitation to 
testify today.
    I am pleased to present the plans for USAID's work in Latin 
America and the Caribbean for Fiscal Year 2017. Our request of 
approximately $970 million will promote the interests of the 
United States, while also significantly improving the quality 
of life for those we help.
    We have identified five priorities for our assistance. 
These are: Prosperity, good governance, and security in Central 
America; promoting a sustainable and equitable peace in 
Colombia; long-term development in Haiti; advancing democracy 
and human rights across the Americas; and addressing 
environmental threats to livelihoods.
    One of the highest priorities is Central America, 
particularly the countries of El Salvador, Guatemala, and 
Honduras. We see prosperity, improved governance, and security, 
the objectives of our Central America strategy, as 
interdependent. We know that providing opportunity for 
marginalized citizens, especially youth at risk of gang 
recruitment or migration, will bolster our efforts in security 
and lead to freer, more prosperous societies.
    Our efforts to grow prosperity are only sustainable in an 
environment where democratic values and institutions flourish, 
human rights are respected, and civil society and the media can 
play their rightful roles. And ultimately, it will be difficult 
for our prosperity and governance efforts to take root in 
societies that are plagued by insecurity. That is why our work 
in Central America addresses all three interrelated challenges.
    Our programs include efforts to create jobs, reform 
institutions to root out corruption, strengthen civil society's 
ability to hold governments accountable, foster a culture of 
respect for human rights, and create safe community spaces. 
With sustained commitment on part of the United States and host 
government institutions, we will help the Northern Triangle 
develop into a safer, more prosperous region for all those who 
live there. Sustained commitment and strategic patience yield 
results, as we have seen with the notable strides made in 
Colombia.
    For Fiscal Year 2017, USAID is requesting $187 million to 
expand upon current programming to help the Colombian 
Government establish a stronger presence in former conflict 
zones, provide post-conflict reconciliation and justice, 
promote inclusive rural economic growth, and sustainably manage 
the country's vast natural resources. These programs will build 
upon current successes, especially for marginalized 
populations, including Afro-Colombians and indigenous peoples.
    Along with Central America and Colombia, Haiti remains a 
high priority for USAID. Our Fiscal Year 2017 request will 
continue our efforts to help Haiti grow into a stable, 
economically viable country. We remain focused on promoting 
economic growth, job creation, and sustainable agriculture, 
providing holistic basic health care and education services, 
and improving the transparency of government institutions. 
While much remains to be done, we are committed to supporting 
the Haitian people as they build a more prosperous and secure 
future.
    Throughout the region, our democracy and human rights 
programs address fundamental issues, including anticorruption, 
promotion of press freedoms and the rule of law, and support 
for civil society. USAID works to assure that government 
institutions are open, accountable, use public funds 
responsibly and effectively, and deliver critical services to 
citizens. Underpinning all of these efforts is support and 
protection of a strong and vibrant civil society that can hold 
governments accountable.
    Another challenge facing the region is the negative impact 
of extreme weather events. Our mitigation and adaptation 
efforts help reduce devastation to life, property, and economic 
activity. We are also speeding the development and deployment 
of advanced clean energy technologies and helping to create a 
favorable legal and regulatory environment to reduce the cost 
of energy.
    We have one goal in mind with everything that we do: To 
empower countries to assume responsibility for their own 
development and grow beyond the need for international 
assistance. We use science, technology, innovation, and private 
sector partnerships to find new solutions and scale up what 
works. For every dollar we spent in this region in 2014, we 
mobilized five times that in private sector resources.
    In conclusion, I want to assure this committee that USAID 
is committed to being good stewards of the funds you entrust to 
us. We take our responsibility to the United States taxpayer 
seriously, and we are committed to accountability, 
transparency, and oversight of our programs.
    I thank this subcommittee for its interest and support of 
USAID's programs, and I look forward to collaborating with you 
as we address longstanding challenges and new opportunities for 
reform. I look forward to your questions.
    [The prepared statement of Ms. Hogan follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. Thank you.
    I thank all the panelists for their testimony.
    I will take a page out of Rob Bishop's playbook as chairman 
and defer till the end.
    And I will go first to Ron DeSantis for 5 minutes.
    Mr. DeSantis. Well, thank you, Mr. Chairman.
    Mr. Palmieri, in Fiscal Year 2009, Congress appropriated 
$20 million in ESF annually to support democracy and human 
rights in Cuba. The Fiscal Year 2017 request, $3.8 million for 
the Embassy in Havana, but cuts U.S. efforts to support human 
rights to $15 million, and yet Cuba remains the only country in 
the Americas ranked as not free by Freedom House. Of course, we 
have seen, since the administration changed policy in December 
2014, political repression has increased.
    So what is the administration's rationale for the 25 
percent reduction in Cuba democracy and human rights funding?
    Mr. Palmieri. We remain very concerned about the human 
rights conditions inside Cuba, and in our most recent human 
rights report signalled that the arbitrary detentions have 
increased, that the Cuban people do not have the ability to 
elect their own leaders----
    Mr. DeSantis. So why are you cutting the funds?
    Mr. Palmieri. And we take that issue and that concern very 
seriously. However, as we are working toward a more normalized 
relationship in Cuba and expanding our engagement in the 
region, we have other tools that are available to us. We have 
more authorized travel to Cuba by American citizens who are 
engaging directly with the Cuban people. We have exchanges that 
are publicly----
    Mr. DeSantis. Wait. Let me ask you that, though. When you 
say ``engaging,'' so say there are Americans that go to Cuba, 
they stay in hotels, they pay. I mean, is that direct 
engagement with Cubans on an economic basis, or is that a 
direct engagement with the regime in Cuba who controls the core 
sectors of the economy?
    Mr. Palmieri. The 50 percent increase in authorized travel 
over the last year has enabled Americans to more directly 
engage in people-to-people activities with the Cuban people, 
which is the goal of our policy. Yes, sir.
    Mr. DeSantis. I think by that answer, you acknowledge, 
though, that the economic transactions are transactions with, 
effectively, the Cuban Government, the military, the 
intelligence services?
    Mr. Palmieri. The travelers have to follow strict 
accountability measures in pursuing their authorized travel. 
They may be staying at different types of accommodations, 
including Airbnb activities that we think promote 
entrepreneurial activity inside Cuba as well, sir.
    Mr. DeSantis. So the human rights situation, you spoke to 
it initially in your answer, but you acknowledge that the human 
rights situation is still very poor in Cuba. Correct?
    Mr. Palmieri. President Obama said so on his trip. 
Secretary Kerry has said so, and our human rights report did 
not pull any punches, sir.
    Mr. DeSantis. I wonder, because they have been very honest, 
the Castro dictatorship, about we are not changing. I don't 
know what you guys--we are going to take any concessions we can 
get. We need credit. We are going to get the credit and 
whatnot. But they have been very insistent that they are not 
changing.
    So I just wonder. We are reducing the request to try to 
promote democracy. We are doing much more engagement now with 
the regime. I wonder whether we are going to see fruits of 
that, because I think, right now, most of us who were skeptical 
of this predicted that the regime would be pocketing these 
concessions, and I think, unfortunately, that is what happened.
    Let me ask you this. The regime has been harboring JoAnne 
Chesimard, who is on the FBI's 10 Most Wanted Terrorists List. 
What is the status of that?
    Mr. Palmieri. In November of last year, we had our first 
round of a bilateral law enforcement working group where we did 
raise, as we have consistently raised, our desire for the 
return of fugitives from U.S. justice. We will continue to 
raise that case and other cases of fugitives, and we hope to 
have another round of talks with the Cuban Government in the 
months to come, sir.
    Mr. DeSantis. The results of those talks, has it just been 
for Cuba to deny releasing anybody, though, correct?
    Mr. Palmieri. I am sorry. I didn't----
    Mr. DeSantis. The results of those talks, while you guys 
may have been well-intentioned, the result of those talks has 
been that Cuba has simply denied releasing anybody. Correct? No 
fugitives have been released up to this point. Right?
    Mr. Palmieri. No, sir.
    Mr. DeSantis. Okay. What about confiscated property? 
Because we have had a number of people come before this 
committee, some of the other committees, who had property 
confiscated illegally by the Castro dictatorship in the early 
1960s, and they have certified claims. We say that we are going 
to be changing these relationships, and you would think that 
that would be one obvious way where the Castro regime could 
show, hey, you know, we are going to change by providing some 
recompense.
    But to my knowledge, I have not seen any information come 
out that there has been anything done in that respect. So let 
me ask you, has the Cuban Government made good on any claims 
that are existing out there regarding illegally confiscated 
property?
    Mr. Palmieri. In December, as part of the process of the 
normalization of the relationship, we had a team that went down 
and engaged in direct discussions about these claims, and we 
continue to pursue another round of talks related to making 
progress on claims resolutions.
    Mr. DeSantis. But no claims have been resolved favorably 
for American citizens or Cuban exiles in America, correct, at 
this point?
    Mr. Palmieri. At this point, I am not aware, sir.
    Mr. DeSantis. Mr. Chairman, thank you for doing this. You 
know, we have been in a situation where, you know, the Castro--
change policy, then change it to help the Cuban people, but 
don't give an inch to the dictatorship. And I just fear that 
these changes have helped the Castro brothers solidify their 
power, and I don't think we have seen it yet with freedom for 
the Cuban people.
    Mr. Duncan. No argument with me there.
    Mr. Sires, 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman.
    What type of assistance does the U.S. Government provide to 
the Venezuelan people to promote democracy?
    Ms. Hogan. USAID has a $6.5 million program in Venezuela, 
and the purpose of the program is to help document human rights 
abuses, to strengthen civil society organizations, and to 
promote the free flow of information within the country and 
between the country and the outside world. And so this year we 
have also helped with the training of domestic election 
observations that took place in the last legislative elections, 
which as you know, brought a new opposition to the majority in 
the Parliament. We are poised to assist this new Parliament, if 
and as asked, but for right now, we are assessing those needs 
because we know that there are other donors that are also 
interested in that space and we don't want to duplicate 
efforts.
    Mr. Sires. And in terms of our efforts to release some of 
the political prisoners, what are we doing with that?
    Mr. Palmieri. The Department continues to call for the 
immediate release of political prisoners in Venezuela. Just 
earlier this month, Assistant Secretary Jacobson met with 
Liliana Tintori, the wife of Leopoldo Lopez. The Department 
also renewed a statement calling on the government to enact the 
bill that was passed by the national assembly calling for the 
release of political prisoners. We will continue to push for 
that as a critical element of improving the internal political 
situation.
    Mr. Sires. And, Dr. Arreaga, what is the reason that there 
seems to be more production of drugs in places like Colombia 
and some of the other places? How did this spike up?
    Mr. Arreaga. There are a number of reasons, sir. First of 
all, I think a lot of the farmers and the narcotraffickers got 
smarter and realized that if they concentrate a lot of their 
cultivation in large areas, it would be more susceptible to 
aerial eradication. So you see a dispersion of cultivation in 
areas where airplanes have more difficulty arriving and 
spraying. And, of course, the end of aerial eradication also 
played a role. So those are some of the major factors.
    And we understand from the Colombian Government that the 
FARC actually encouraged farmers to plant more coca in 
preparation for the peace plan, but we have no confirmation of 
that.
    Mr. Sires. And are some of the other countries, the same 
reason?
    Mr. Arreaga. Well, I think you have seen in Peru, the areas 
where coca cultivation has increased are areas where it is very 
difficult to access by the government, the VRAEM area in the 
south. So the government is planning very much to eradicate, 
but it is a bit of a catch-up for them because they need the 
resources and they need the mobilization, which they do not yet 
have.
    Mr. Sires. And, Mr. Palmieri, I know one of the reasons 
that we are engaging in Cuba is because we always have problems 
with all the other countries in the region. What are we doing 
for those countries to speak up about the abuses in Cuba?
    Because there hasn't been one country that has said 
anything about the conditions in Cuba and how they have become 
worsened, how they have imprisoned more people, and how they 
have cracked down. And I would think that by now, some of these 
countries that were so pushy on us to have some sort of 
relationship with Cuba, they just clamped up and don't say 
anything.
    Mr. Palmieri. I think we continue to encourage our partners 
in the hemisphere to engage on the human rights situation and 
conditions within Cuba. And we urge them to speak out and to 
take a more definitive, proactive stance to encourage the Cuban 
Government to address these problems of arbitrary detention and 
the lack of freedom of association and assembly. And we will 
continue to push those governments to be a more authoritative 
voice.
    Mr. Sires. You know, the chairman and I took a trip through 
five countries. We raised that very issue, and quite frankly, 
we didn't get a reaction that any time soon they were going to 
say anything about what is going on. Some of these countries, 
one of the more vocal countries in terms of the United States 
reaching some sort of an accord with Cuba. So we didn't get any 
kind of a response, basically, that they are going to do 
anything in the future.
    Mr. Palmieri. I can assure you, Mr. Sires, that as part of 
our ongoing diplomacy in this hemisphere, we do engage 
countries from throughout South America, Central America, and 
North America to speak more forcefully and more definitively 
about the abominable human rights conditions inside of Cuba.
    Mr. Sires. The only country that spoke up about human 
rights abuses, in Venezuela, was Macri, just recently elected. 
But nobody else has said a word.
    Thank you.
    Mr. Duncan. I thank the ranking member.
    And I am going to go now to Mr. Yoho from Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    And I appreciate you three being here.
    I too was on that trip to South America, and I did find it 
interesting that everybody said that we need to normalize 
relationships with Cuba; it was the right thing to do, you 
know, close Guantanamo because it was a mark on America and it 
wasn't a good sign. And my member--my friend, Albio Sires, 
brought that up over and over again. You know, what about what 
is going on in Cuba? How come you are not denouncing it? And I 
just found it hypocritical. And it just didn't bode well that 
here we are trying to help the Cuban people out, and you were 
talking--I think it was you, Dr. Arreaga--you were talking 
about the entrepreneurs in Cuba, that this was going to allow 
them to expand businesses. Can you explain what an entrepreneur 
in Cuba is compared to America?
    Mr. Palmieri. There are a number of activities underway 
that, through some regulatory changes the administration has 
made, that allows us to help Cuban entrepreneurs, whether they 
are----
    Mr. Yoho. What administration? This one or the Cuban 
administration?
    Mr. Palmieri. President Obama's regulatory actions that 
have enabled Americans to more directly support Cuban 
entrepreneurs, whether they are small restaurant owners. We now 
allow Americans to provide remittances to these entrepreneurs 
to help their private sector activities. We now permit 
microfinance, training activities, and we also allow for the 
export of certain materials to the small but growing Cuban 
entrepreneurial class.
    Mr. Yoho. Okay. So now, if I am a Cuban business owner and 
I am getting these microloans from an American counterpart and 
I am going into business in the country of Cuba, what freedom 
do I have with these regulations and executive privileges that 
President Obama has extended to the people of Cuba? What 
privileges do I have as a Cuban business owner that I don't 
have to worry about the Cuban Government come and confiscating? 
Are they going to limit how much I can make?
    Mr. Palmieri. There has been over the last 5, 6 years a 
growing number of licenses issued by the Cuban Government to 
individual Cubans to pursue exactly these kind of private 
activities that we think our regulatory actions will allow 
Americans to more directly support. They range from activities 
in restaurants, as I mentioned, Airbnb activities, private 
transportation activities. The sector has grown over the last 6 
or 7 years.
    Mr. Yoho. Does the Cuban Government dictate how much they 
are going to make a day or an hour, on the employees?
    Mr. Palmieri. I believe that--my understanding is that 
Cuban private sector entrepreneurs earned far, far above or 
much more, I should say, than the average public sector wage, 
sir.
    Mr. Yoho. All right. We will follow that. The reports I 
have say it is not true. You know, the Cuban Government is 
there. They have a heavy hand, and they confiscate whatever 
they want because everything belongs to the Cuban Government.
    Moving to Haiti real quick here, Ms. Hogan, how many homes 
have been built down there since the earthquake, through USAID?
    Ms. Hogan. USAID built 750 homes. However, we have turned 
our strategy toward housing finance rather than construction. 
And so as a result we are able to link residents with low-
income properties to microfinance institutions that will allow 
them to----
    Mr. Yoho. Are we financing that through the American 
Government and the American taxpayers?
    Ms. Hogan. We are. We are helping.
    Mr. Yoho. What is their failure rate?
    Ms. Hogan. The failure rate of what, sir?
    Mr. Yoho. Of the loans.
    Ms. Hogan. Zero, thus far.
    Mr. Yoho. Zero. What is the average size of the house that 
they are building down there, square foot?
    Ms. Hogan. Well, again, we are not building houses anymore.
    Mr. Yoho. But we were previously.
    Ms. Hogan. But we were building houses.
    Mr. Yoho. What was that size?
    Ms. Hogan. I believe they are about 500 square feet.
    Mr. Yoho. 400 was what I have.
    What was the average cost of those homes?
    Ms. Hogan. The average cost----
    Mr. Yoho. Construction, construction cost.
    Ms. Hogan. Right. The average cost of those homes was about 
$15,000, I believe. I have to double-check those numbers.
    Mr. Yoho. That is a pretty high cost of construction, I 
would say.
    Ms. Hogan. Which is why we----
    Mr. Yoho. About $300 per square foot. They must have used 
the CFPB for their remodeling.
    Ms. Hogan. Well, that is the----
    Mr. Yoho. I yield back. Thank you.
    Mr. Duncan. Mr. Meeks is recognized.
    Mr. Meeks. Thank you, Mr. Chairman.
    I am listening and I would think that from what I am 
hearing, we must have regressed in Central and South America. 
But from what I understand, for the last 10, there has been 
vast improvement in Central and South America, and our 
investments and our commitments, especially post--you know, 
Cold War is over--has tremendously helped the entire region, 
the entire hemisphere, that when you look at what has taken 
place as far as democracy throughout the Central and South 
America is definitely going in a positive direction.
    When you look at still far too much poverty, but poverty 
reduction in the area, it is going in the right direction. When 
I look at the number of individuals or people who are--you 
know, as far as democratic institutions, not where we want to 
be yet, but we are moving in the right direction. Would you all 
agree with that statement? Much better than it was 15, 20 years 
ago, for sure. Now, things don't change overnight, but we are 
doing much better than we had been doing.
    And before I ask my question, the other piece is because we 
all want to make sure we do right by the Cuban people, I know 
that, but we have had one policy for 57 years, and none of the 
things that I am hearing has changed in 57 years. So for 57 
years with one single policy that we have continued to have and 
nothing has changed, it would seem to me reasonable that we 
should have some kind of change to see if something else might 
work, because we know for 57 years it has not worked.
    And I think, Mr. Palmieri, what you are telling me is 
that--and I have had the opportunity, I was very happy to be 
with the President on his historic trip to Cuba where I heard 
him, with Raul Castro present, being very critical about human 
rights, et cetera, and said the United States will continue to 
insist that we move forward. But I think that you were trying 
to articulate the interaction of American citizens so that when 
people, when business folks get to moving, that they can 
determine for themselves, those that live there, how to make 
sure they move and change this government. Is that the policy 
that you were intimating?
    Mr. Palmieri. Yes, sir. I think we believe that by 
expanding people-to-people ties and business opportunities and 
access to information, we can more effectively support the 
Cuban people. In addition, I think we believe that American 
citizens are some of the best Ambassadors we have for our 
values and ideals, and that level of people-to-people contact 
will also help us make progress.
    Our enduring objective in Cuba remains that it be peaceful, 
prosperous, and democratic, and that the Cuban people have the 
ability to choose their leaders and their own future.
    Mr. Meeks. Thank you.
    I need to jump to Ms. Hogan for a second because you 
mentioned in your opening statement something that is very 
important to me. You talked about Peace Colombia and the 
effects of African-Colombians, which is really important as we 
get to peace because many of the folks will return back. I know 
the President is there. Will you tell us a little bit more 
about that, how that will work?
    Ms. Hogan. Thank you very much for that question. In fact, 
Afro-Colombians is a very important target group for us. In 
fact, we have invested in the workforce development of over 
9,000 African-Colombians who are now working in modern economy 
jobs. More than 8,000 of them who have come through our 
training program have been hired for well-paying jobs in a 
variety of sectors.
    We continue to invest in Peace Colombia, which is a 
rebranding of Plan Colombia, in order to help the government 
extend its presence into these ex-conflicted zones. We are 
currently working in 40 municipalities. With the peace 
agreement and with Fiscal Year 2017 funds, we will be able to 
move out into another 20 communities to help the government 
establish its presence, but more than anything, in addition to 
help incentivize economic development and investment in those 
areas to create jobs for the people who are going back there.
    We have a great example of a partnership we have with 
Starbucks Coffee, which is working in these ex-conflicted zones 
to help these indigenous populations and others who are coffee 
growers increase the quality of their coffee and attract 
additional investment from other companies that see that those 
investments are having a good return on the money. There are 
about 25,000 coffee growers who are benefiting from that one 
partnership. And, of course, we are also helping reconciliation 
and justice for victims of the conflict. And finally, looking 
to licit value chains like coffee for people who had been 
growing coca and try to get them into the other profitable 
areas of coffee, cacao, dairy, and rubber.
    Mr. Meeks. Thank you. I am out of time.
    Mr. Duncan. And Raul Castro said, you can't ask me about 
political dissidents. It is wrong, improper for you to ask me 
about political dissidents.
    So anyway, the Chair will now recognize the gentlewoman 
from Florida, the former chairman of the committee and now 
chairwoman of the Middle East and North Africa Subcommittee.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    And dovetailing on the direction of Latin America, I wanted 
to ask you how you see the direction of some countries in Latin 
America. Is it really going the right way as we would like? 
When it comes to the rule of law, when it comes to press 
freedom, when it comes to individual freedom of expression, 
when it comes to separation of powers, leaders who get elected 
and then change the Constitution to stay in power, would you 
say that Ecuador under Rafael Correa is moving in the right 
direction? Simple question. Rather simple.
    Ms. Hogan?
    Ms. Hogan. We have a program in Ecuador----
    Ms. Ros-Lehtinen. Would you say that it is moving in that 
direction toward greater freedom?
    Ms. Hogan. I think people are feeling the suppression of 
human rights.
    Ms. Ros-Lehtinen. Yes. Thank you.
    How about Bolivia under Evo Morales, moving more toward 
press freedom, freedom of expression, a separation of powers, 
rule of law, would that be a direction that we think should be 
emulated and that we herald?
    Mr. Palmieri. The referendum in February was a clear 
expression of how the Bolivian people feel about the situation.
    Ms. Ros-Lehtinen. I am talking about the Evo Morales 
government. Would you say that they are moving toward, you 
know, the arc, the famous arc, is it moving toward what we 
would consider democratic, fundamental principles of democracy?
    Mr. Palmieri. I would like to let the Bolivian people speak 
for themselves.
    Ms. Ros-Lehtinen. Okay. Thank you.
    How about Venezuela under Nicolas Maduro, would you say 
that that government is more toward the rule of law, freedom of 
expression, press freedom?
    Mr. Palmieri. Those are all areas that we remain deeply 
concerned about.
    Ms. Ros-Lehtinen. Deeply concerned. How about Nicaragua 
under Daniel Ortega? How about Cuba under Raul Castro? I mean, 
we could put on our rose-colored classes and say everything is 
peachy keen in Latin America, or we could look at it as the way 
it really is. And it is a problem. It is a fixer-upper. A 
fixer-upper. And talking about Cuba, you know, we talk about 
55-plus years of a policy that does not work. How about the 
changes in Cuba in these 55 years? In those years, have the 
Cuban people been able to vote once in a free, fair, and 
internationally supervised election that would pass any 
criteria by any human rights organization? One?
    Mr. Palmieri. No. They have not.
    Ms. Ros-Lehtinen. No. How about have they been able to form 
political parties? By any stretch of the imagination, have they 
been able, in these 55 years of a policy that hasn't worked in 
the United States, I know we have a blame-America-first crowd, 
but how about, let's look otherwise. Have they been able to 
form political parties?
    Mr. Palmieri. I would never blame America first.
    Ms. Ros-Lehtinen. No. I am not saying you----
    Mr. Palmieri. But what----
    Ms. Ros-Lehtinen. But let me ask you, how many political 
parties are allowed to operate in Cuba? How many political 
parties?
    Mr. Palmieri. There is only one political party.
    Ms. Ros-Lehtinen. Okay. Thank you. And how about freedom of 
the press? Would you be able to start your own newspaper, your 
own TV network, your own--you know, what press freedoms are 
there in these 55 years?
    Mr. Palmieri. Press freedom is a significant----
    Ms. Ros-Lehtinen. A fixer upper. Yeah. And by any stretch 
of the imagination, this policy that hasn't worked from the 
U.S. side, gee, when you look at the Cuba aspect of it, it 
hasn't gotten a whole lot better for the people of Cuba what 
Castro has been doing to them. Now, what have we seen since the 
President's change in diplomatic relations? Has there been, or 
has there not been a massive exodus of Cubans fleeing the 
island, not getting the memo that everything is great there? 
Have there--because I know, I represent South Florida, so I 
know what is going on there. Has there been what you would call 
an exodus? We just got back from Guantanamo yesterday.
    Mr. Palmieri. President Obama has said that the change in 
the relationship will not come overnight and that 
normalization----
    Ms. Ros-Lehtinen. But has there been an increase? Because 
if not, we have other U.S. agencies like the Coast Guard, and 
like the Red Cross, who tell us that there has been an 80 
percent increase in this past year since the President's 
diplomatic relations to now. Has there been an exodus of Cubans 
fleeing the island?
    Mr. Palmieri. We believe that the people-to-people 
exchanges that we are pursuing in the policy----
    Ms. Ros-Lehtinen. I don't know. So the answer is yes. For 
the people who count the bodies, they know that there has been 
a massive exodus of people. And when I look around and I see, 
gosh, what has really changed in Cuba since all of this has 
happened, one-way concessions, pleasing the dictator, getting 
very little out of it.
    But let me just ask you one question about Venezuela. Since 
we passed the bill, I had the bill here with all of my 
colleagues. Marco Rubio had it in the Senate. How many 
individuals has the Obama administration sanctioned in 
Venezuela for human rights violations? That means that they 
can't come to the United States; we freeze their accounts; you 
know, they can't do any commercial dealings, buy property. 
There have been massive human rights abuses in Venezuela. There 
were originally seven or eight. How many have been since cited 
on that list?
    Mr. Palmieri. We did sanction individuals last year after 
the legislation was implemented.
    Ms. Ros-Lehtinen. Last year. So since that time, when there 
have been such massive human rights abuses, Leopoldo Lopez, the 
mayor of Caracas, who is on house arrest. I mean, I can't even 
list how many political prisoners there have been. Has any of 
those people involved in the persecutions and the prosecution 
of these human rights activists, have they been sanctioned?
    Mr. Palmieri. We did sanction people when the legislation 
was first implemented.
    Ms. Ros-Lehtinen. Anyone related to the Leopoldo Lopez 
trial? Anybody sanctioned?
    Mr. Palmieri. I would have to get back to you with----
    Ms. Ros-Lehtinen. The answer is no. Thank you.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you. Excellent line of questioning.
    We will now go to the gentleman from California, Mr. 
Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair. And I want to thank 
the witnesses for being here, and for your testimony.
    I want to follow up on some of these issues about--I am 
kind of interested in the relationship between our aid and our 
budget and human rights and rule of law. I want to focus on 
Mexico. Recently, a number of us submitted a letter to the 
Secretary of State regarding the disappearance of the 43 
Mexican students and the investigation, and now, just recently, 
the Inter-American Commission on Human Rights, this group of 
experts, has just returned and issued a report. And that 
report, in part, I think in large part, said that there was no 
cooperation between the Commission and--there was a problem in 
the relationship between the Commission and getting cooperation 
from the Mexican Government. How does that impact our aid? When 
we are seeing kind of this Commission report talking about the 
lack--you know, the lack of cooperation, does that impact at 
all the amount of aid that we give to Mexico? Or do we 
condition aid on at least cooperation?
    Mr. Palmieri. We did take note of the April 24 Inter-
American Commission human rights report of the expert--of the 
independent expert. We commended the Commission's work and--
which was initially requested by the Government of Mexico. 
Mexico should consider the report's recommendations and fully 
evaluate the suggested actions to address forced 
disappearances, to provide more support to the victims, and to 
begin to bring the perpetrators of that tragedy to justice.
    In the broader sense, we work closely with Mexico on a wide 
range of human rights issues, and encourage it to improve its 
human rights performance.
    Mr. Lowenthal. Do you think, following up on the 
Congresswoman from Florida, do you think human rights are 
improving in Mexico?
    Mr. Palmieri. The human rights situation in Mexico is a 
very complex issue. In some respects, as Mexico moves to 
implement the constitutional reforms to reform its justice 
sector, they are making progress in improving the human rights 
conditions in the country. But, at the same time, when you see 
a report like this that details with specific recommendations 
on how they could do better, it is clear that Mexico should 
review those recommendations.
    Mr. Lowenthal. Should it have any impact upon our foreign 
aid? Our aid? I would like to hear from any of the witnesses. 
Ms. Hogan?
    Ms. Hogan. Right. The assistance that we are providing 
Mexico is intended to help them develop a very strong human 
rights regime and response.
    Mr. Lowenthal. But I am not seeing that happen, and we have 
been giving this assistance. I am seeing a report that just 
came out this week that really details the lack of cooperation 
between the investigators. How does that impact our aid?
    Ms. Hogan. Well, one of the things that USAID is investing 
in is the human rights protection mechanism in Mexico, which 
has allowed the Mexican Government to establish a rapid 
response capability to protect human rights of those who are 
threatened, an emergency response capability to support victims 
of human rights, and to create networks of human right 
defenders, and particularly journalists. And I can say that 2 
years ago, we had 40 people who used the system. Last year, we 
had 400 people who have used the system.
    Mr. Lowenthal. Are you not appalled by the investigation 
and the loss of those 43 students who have never been 
identified where they are?
    Ms. Hogan. Terrible. Terrible series of events there. And 
yes, absolutely.
    Mr. Lowenthal. Anybody else want to comment on----
    Mr. Arreaga. Yes, sir. We, of course, recognize that there 
are challenges in Mexico, and that is the reason we are there, 
and we are pouring quite a bit of resources in strengthening 
the justice sector system. They are moving toward the 
accusatory system. You are moving the entire--not only the 
Federal system, but as well as the States. And it is a huge 
challenge. It is a huge challenge that is going to take very 
many years. But we have our best and brightest working with the 
Mexicans to build that system, and it is going to take some 
time. But we are there because they asked for our help and we 
are happy to give it to them.
    Mr. Lowenthal. I just also wonder how--I want to--how do we 
help these--an independent investigation like the Inter-
American Commission, who is having difficulty? How do we help 
them with the Mexican Government, or do we, in terms of their 
getting cooperation and being able to have the Mexican 
Government actually assist in this investigation rather than 
seem to stonewall the investigation by pointing their fingers 
at everyone else who has done it, but not really providing the 
support to the investigative team? I mean, how do we help them? 
We are giving them a lot of money.
    Mr. Palmieri. Through the Merit Initiative, we have 
expanded broadly U.S. law enforcement cooperation. We have 
helped professionalize their police and security forces----
    Mr. Lowenthal. Do what?
    Mr. Palmieri. We have an ongoing bilateral human rights 
dialogue with them where we raise cases like this case.
    Mr. Lowenthal. Well, I am just saying I hear you, all that 
you are doing, but I am terribly disappointed in this, in what 
is taking place and our lack of response to what is going on. I 
yield back.
    Mr. Duncan. Thank you, Mr. Lowenthal.
    We will go down now to Mr. Donovan from New York.
    Mr. Donovan. Thank you, Mr. Chairman. And I thank the 
witnesses for appearing today before us.
    Approximately--and I will be short, Mr. Chairman, because I 
know the vote could be called any moment. A couple of weeks 
ago, I had the pleasure of visiting the CDC, and because of the 
attention now to Zika, and coming from South America, 
particularly Brazil and the Olympics being performed there this 
summer, I was shocked about the amount of cases we have of 
malaria in the United States. There is over 1,200. I think it 
is the highest number last year that we have had since--in 40 
years.
    So I was just wondering about some of the efforts to combat 
mosquito-borne viruses in South America, particularly malaria. 
The World Health Organization had said that they could probably 
eradicate malaria in about 20 countries in the world by 2020. I 
think eight of those countries are in South and Central 
America. So I was just wondering if you could talk a little bit 
about the efforts that--down there to eradicate the malaria and 
to control the Zika virus.
    Ms. Hogan. Certainly. Well, thank you for the question. In 
fact, we have graduated all of our countries in South America 
now from health assistance because we have--over the years, 
investing in those systems, they are now standing up and able 
to take care of their own basic health needs.
    However, we continue to help on infectious diseases, and 
malaria. We currently have a cooperative agreement with the Pan 
American Health Foundation to--excuse me. PAHO. Pan American 
Health Organization, right, to help countries develop systems 
to combat malaria. We are also working now on Zika, thanks to 
the approval of USAID's CN that will allow us to stand up 
behavior change communication programs, so that people will 
become aware of how they get the Zika virus and how to respond 
to it.
    We are investing vector control methodologies. We just 
issued a grand challenge last week for $30 million to try to 
incite innovative ways in which we could do more research and 
development and the development of diagnostic tools for Zika. 
And, of course, we are prepared to help governments design 
programs that would provide the care and treatment for women, 
pregnant women, and infants who may be affected by the disease.
    Mr. Donovan. Any other--is there--all right. Thank you very 
much. I yield back.
    Mr. Duncan. I thank the gentleman.
    I now recognize myself for 5 minutes.
    You all have answered a lot of the questions that I had 
about Cuba and about Venezuela, and some of the money there. So 
I want to shift gears a little bit.
    We were in Paraguay, and we had a conversation about--give 
you an example. Rio de Paraguay is a huge shipping channel from 
Bolivia all the way to where it runs into Rio de Uruguay, and 
then on to the Atlantic Ocean for barges, shipping containers 
that make their way all around the world.
    But in the capital city of Paraguay, they need to do some 
dredging. It will cost about--the way we heard, about $10 
million estimated. You know, if you think about what a shot in 
the arm that would be, U.S. assistance to a country like 
Paraguay, to help with that sort of thing, that really, I 
think, is something that we ought to be considering when we 
talk about Western Hemisphere State Department budget and 
working with our friends and allies. We hear a lot about USAID 
programs, micro loans and that sort of thing, micro financing. 
Just give you one example where you get a lot of bang for the 
buck, I think. Maybe more so than $10 million dropped in 
Nicaragua over the years and that sort of thing. So just throw 
that out there.
    Do we give any assistance to Uruguay because they are 
handling the--or took the GTMO prisoners, their Uruguay 6? Do 
they receive any additional funding from us for that? That is a 
question I don't know the answer to.
    Mr. Palmieri. I will have to talk to the coordinator's 
office. I believe there was some re-settlement funding 
provided. I don't know if it is being done on an ongoing basis.
    Mr. Duncan. All right. You know, they are a strong human 
rights defender. And there is another country that I consider 
we would get a lot of bang for the buck if we considered 
helping them in that area. And they did take those prisoners.
    So I had a meeting last week in the office with members 
from the Dominican Republic, and they shared with me in some 
ongoing efforts between Haiti and the Dominican Republic along 
the border. One is an economic zone, one is an energy zone, and 
one a shipping zone. Does the United States play any part of 
that? Because I do see a lot of benefit, at least for the 
Haitians as well as the Dominicans, on those projects. All 
right? Is that included--is that USAID involvement? Is there 
any State Department dollars or U.S. dollars going to help 
Dominican and Haiti with those type programs or projects?
    Ms. Hogan. USAID is helping Haiti rehabilitate a port in 
Cap-Haitien that would allow for the import of container ships. 
So it will ultimately be an economic incentive in Haiti because 
it will increase the amount of trade that they are able to do 
along their northern border.
    Mr. Duncan. Okay. And I appreciate that. I do--when they 
were speaking last week, a light bulb went off. What a great 
way to impact so many lives with consistent jobs, economic 
improvement, and it is bilateral. Is the U.S.--my question is 
the U.S., and should the U.S. be partners in that in some way 
because giving a lot of money to Haiti to rebuild, and there is 
hints of corruption and hints of money not getting to where the 
rubber meets the road. But I can point to these projects going, 
hey, that is a pretty good idea.
    Wasteful spending in the Fiscal Year 2017 budget. So Fiscal 
Year 2017 request is for $324,000, 57.6 percent of the Pan 
American Institute of Geography and History budget priorities 
listed in the Fiscal Year 2016 budget request for the same 
amount of money included spending taxpayer dollars on creating 
an atlas of climate change in the Americas, and publishing the 
history of America to further the concept of Americas as an 
interconnected unit. This seemed to be a waste of U.S. taxpayer 
dollars when we are over $19 trillion in debt. And when the 
region struggles with having such high rates of crime, 
violence, tepid economic growth, and the list goes on because 
the questions have already been asked. So was U.S. taxpayer 
assistance used last year to create this atlas and this 
history? Mr. Palmieri.
    Mr. Palmieri. I will have to take that question back, sir. 
I am not familiar with that specific appropriation and that 
program, but we will get you a full answer on how that money 
was used.
    Mr. Duncan. Okay. Because I personally th ink that money 
could be better spent fighting crime and narco trafficking, 
helping Colombia and the things we talked about instead of 
spending our taxpayer dollars creating a history that may or 
may not be accurate of the Americas and a climate change atlas. 
I don't believe my constituents would want to see their dollars 
going to that when we have drug running coming out of Central 
America and Latin America to the U.S. We have got issues of 
judicial graft and corruption in a lot of countries. You see 
what I am saying? We could better spend these dollars. And it 
kind of reminds me of National Institutes of Health putting 
shrimp on a treadmill. Don't spend our tax dollars putting 
shrimp on a treadmill for whatever your trumped-up reason is. 
Spend them where they are effective. Okay?
    You wanted to say something?
    Mr. Palmieri. Yeah, I do, sir. I agree that we need to 
maintain our investments in the security sector. But we also 
are seeing an enormous drought that is affecting Central 
America right now. And to the extent that we can better 
understand the patterns of that drought, we might be able to 
direct more effectively agricultural assistance and other forms 
of development assistance so that the conditions of people who 
are at increased food security risk can be more quickly 
addressed, thereby removing a push factor for them to leave the 
region and their home communities.
    So there could be a reason why a better understanding of 
the impact of climate change in Central America could help us 
protect U.S. interests and prevent undocumented irregular 
migration by more effectively directing our aid.
    Mr. Duncan. So what you are saying is an atlas of climate 
change would have predicted the El Nino effect that caused the 
drought in Central America that led to the migration crisis. By 
having that atlas, we would have been able to foresee this 
climate change that is driving people north.
    Mr. Palmieri. As I said, sir, I am not familiar with the 
particulars of the atlas. But I do think more effective 
understanding of climate change in Central America could help 
us better direct assistance----
    Mr. Duncan. I think taking that money to help with drought 
assistance by USAID, going in after when the drought does 
impact the region and helping, is a better use of taxpayer 
dollars than trying to predict the climate. The weatherman 
can't tell you what the climate is going to be tomorrow. And we 
are trying to predict climate in a region. Nobody saw the 
drought coming. The climate scientists didn't see the drought 
coming. So, anyway, my time is up.
    Gentlemen and Ms. Hogan, I do appreciate you all coming 
today. This is insightful. This is part of the oversight that 
is necessary. Members may have additional questions.
    Well, I am going to defer to the former chairwoman who has 
a follow-up question.
    Ms. Ros-Lehtinen. Just a question on democracy.
    Mr. Duncan. Votes have been called, so quickly.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I know 
we have votes.
    Ms. Hogan, has USAID fallen back to its--to the paths when 
USAID was not committed to democracy funds in Cuba? And I ask 
this because we know the history of it. In 2013, USAID decided 
to cut itself out of the democracy funds. And then in 2014, 
Congress followed by zeroing out USAID for Cuba as well. So now 
USAID has been allowed to access the Cuba funds for Fiscal Year 
2015. And in October 2015, USAID sent their Congressional 
notifications to the Hill for $6.25 million for Cuba, and the 
notification was for two programs, humanitarian and human 
rights.
    In November 2015, the notification cleared Congress. In 
January, USAID issued publicly a request for proposals for the 
humanitarian assistance portion, and we are almost at May 
already, and yet, this money has not been obligated. If you 
could give us a picture of what is going to be happening, and 
do you still have to request proposals for the human rights 
portion of the notification? Is that correct? And I wanted to 
know why there is a holdup in humanitarian and human rights 
program when they are so desperately needed in Cuba right now.
    Thank you, Mr. Chairman.
    Mr. Duncan. I thank the chairwoman for her continued 
leadership on the Cuban issue. And, again, I thank you guys for 
coming. Everyone has been--very valuable insight, and the 
questions have been, I think, robust and spot on today.
    Members may have additional questions. We will submit those 
and ask that you provide answers within a timely manner. And 
any member that has statements they would like to submit for 
the record, we will leave that open for 10 days.
    Without objection, we will stand adjourned.
    [Whereupon, at 3:14 p.m., the subcommittee was adjourned.]

                                     
                                  

                            A P P E N D I X

                              ---------- 
                              
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
